Report No. AU99-014 (514076)
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Prairie State Legal Services
Recipient No. 514076
AU99-014
May 1999
APPENDIX 2:
Grantee
Comments
to Draft
Report
OTHER REPORTS
OIG HOME
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE, AND METHODOLOGY
RESULTS OF AUDIT
CASE MANAGEMENT REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Examination of Reported Cases
Closed Cases Were Overstated
Ineligible Clients
Duplicate Cases
Open Cases Were Overstated
OTHER CASE MANAGEMENT ISSUES
MANAGEMENT ACTIONS
CONCLUSIONS
RECOMMENDATIONS
SUMMMARY OF GRANTEE COMMENTS ON DRAFT REPORT
OFFICE OF INSPECTOR GENERAL COMMENTS
APPENDIX 1 - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX 2 - PRAIRIE STATE LEGAL SERVICES COMMENTS ON DRAFT REPORT
EXECUTIVE SUMMARY
The 1997 Grant Activity Report submitted by Prairie State Legal Services, Inc. (grantee) overstated both the number of cases closed during the year and the number of cases open at year-end.  The grantee reported 13,091 closed cases and 4,686 open at year-end.  The reported closed cases were overstated by an estimated 752 cases or 6 percent.  Open cases were overstated by an estimated 890 cases or 19 percent. The estimates are based on the results of our review of a sample of reported cases.
Closed cases were overstated because the grantee reported services provided to ineligible clients as cases, and recorded some cases more than once.  The ineligible client cases occurred because the grantee provided legal services to individuals whose income was higher than allowed by LSC regulations.  Open cases were overstated because the grantee did not close cases in a timely manner.  Grantee management attributed the untimely closures to difficulties in the implementation of a new automated case management system.
Other issues, not directly related to case reporting, were also disclosed during the audit.  Our testing of case files disclosed that some cases were closed with incorrect closing dates and closure codes, some cases were closed with an incorrect problem code, some case files lacked citizenship attestation forms, and some case files lacked a signed retainer agreement.
On page 8 we make recommendations for corrective action.  In commenting on our draft report, the grantee indicated that actions have been taken or were underway to correct the above problems.
BACKGROUND
The grantee is headquartered in Rockford, Illinois and has eight branch offices located in Bloomington, Kankakee, Ottawa, Peoria, Rock Island, Rockford, Waukegan and Carol Stream, Illinois.  The offices were staffed with 50 attorneys, 7 paralegals and 33 support staff.  In 1997, the grantee received $4.1 million in funding to provide legal services to the poor in its service areas.  The Legal Services Corporation (LSC) provided $2.2 million or about 54 percent of the grantee's funding.  The remainder came from state and local governments and private sources.
The grantee is required to prepare and submit an annual Grant Activity Report to LSC on key aspects of its program including the number of open and closed cases, types of cases handled and the reasons for closing cases.  For calendar year 1997, the grantee reported 13,091 closed cases and 4,686 open cases at year-end.  In 1997, the grantee began tracking client cases through an automated system called Clients for Windows.  Branch office data was sent to the grantee's Rockford office for preparation of the annual Grant Activity Report.
OBJECTIVES, SCOPE AND METHODOLOGY
The objective of this audit was to determine whether the grantee provided LSC with accurate case statistical data in its 1997 Grant Activity Report.
The Office of Inspector General (OIG) performed the on-site review October 5-9; October 25 - 30; and November 4-6, 1998.  We reviewed the grantee's 1996 and 1997 proposals submitted in the grant competition process, Grant Activity Reports for 1996 and 1997, and the Program Integrity Certification for 1997.  We evaluated the grantee's policies and procedures on eligibility guidelines and staff case maintenance. The Staff Guide for Record Keeping and financial statements for the period ending December 31, 1997 were reviewed.  The grantee's Executive Director, Director of Litigation, Controller, Assistant Controller, Director of Program Development, Director of Special Projects, managing attorneys, staff attorneys, paralegals, and support staff were interviewed.
We selected the grantee's main office in Rockford along with two branch offices, Waukegan, Carol Stream, and one subgrantee, Will County Legal Assistance Program for our review of open and closed case files.  The audit team visited these locations and reviewed a random sample of 96 closed and 84 open case files.  We also performed analytical procedures on a sample of potential duplicate cases to determine if the same case was reported more than once.
We performed the audit in accordance with Government Auditing Standards (1994 revision) established by the Comptroller General of the United States and under authority of the Inspector General Act of 1978, as amended and Public Law 105-119, incorporating by reference Public Law 104-134, §509 (g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The 1997 Grant Activity Report overstated the number of cases closed during the period and the number remaining open at year-end.  Closed cases were overstated because the grantee reported ineligible client cases and some cases more than once. The ineligible client cases occurred because the grantee provided legal service to clients whose income exceeded the amount allowed by LSC regulations.  Open cases were overstated because the grantee did not close cases in a timely manner.  Grantee management acknowledged that improvements were needed in the reliability of case statistical data submitted to LSC.
Case Services Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report summarizing the pervious year's legal service activity wholly or partially supported with LSC funds. This information in the report includes total number of cases worked on, types of legal issues, number of open and closed cases and the reasons cases were closed.  The report also includes information on Private Attorney Involvement cases.  The Case Service Reporting Handbook and Grant Activity Report instructions provide reporting criteria for cases.  Reported cases must be for eligible clients and within the recipient's priorities.  Eligibility is based on income and asset determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses recipient case statistical information to support the Corporation's annual budget request and as a performance measure in the performance plan submitted in response to Government Performance and Results Act.  The compilation of program-wide data on open and closed cases is an integral part of the management oversight process and allows LSC management to keep its Board of Directors and the Congress informed of significant program activities and performance.
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Clients for Windows is a data processing system that allows the grantee to store, retrieve and analyze information about client cases and the organization's delivery of legal services.  The grantee has uses Clients for Windows to produce annual case statistical reports on open and closed cases.  The data from these reports was then manually entered into the Grant Activity Report system.
In response to the annual reporting requirement, the grantee submitted the following information to LSC for the year ended December 31, 1997.
Type of Legal ProblemClosed CasesOpen Cases
Consumer/Finance1,717579
Education13438
Employment28219
Family4,8852,179
Juvenile474
Health389179
Housing3,398772
Income Maintenance1,388689
Individual Rights15424
Miscellaneous697203
TOTAL13,0914,686
Overall, the grantee classified 81 percent (10,613) of its closed cases as brief services and 19 percent of them (2,478 cases) as extended services.
Examination of Reported Cases
The grantee overstated closed cases by 752 (6 percent) in the 1997 Grant Activity Report.  The overstatement occurred because ineligible clients were provided legal services and the reported closed cases included duplicate cases.  Open cases were overstated by 890 (19 percent) because cases that should have been closed were reported as open.
CLOSED CASES WERE OVERSTATED
Ineligible Clients
We estimated that about 545 closed cases should not have been reported as closed in the Grant Activity Report because the grantee serviced ineligible clients.  These clients had income that exceeded the amount allowed by LSC regulations and should not have been accepted as clients.  LSC regulations generally require that legal services be provided only to individuals whose annual income does not exceed 125 percent of the poverty level.
Duplicate Cases
Based on an analysis of a sample of potential duplicate cases we estimate that 207 cases were reported at least twice in the 1997 Grant Activity Report.  In these cases, a telephone counselor opened a case for a client and within a few days another counselor opened a second case for the same client with the same problem.  Both cases were closed after legal services were provided.  The problem occurred because the case management system did not allow the telephone counselors to determine if a case has already been opened for an individual requesting legal assistance.
OPEN CASES WERE OVERSTATED
The grantee's reported open case total of 4,686 was overstated by an estimated 890 cases (19 percent).  For these cases legal assistance had ceased prior to 1997. The Case Services Reporting Handbook states that a case should be closed when the client's problem is resolved or when it is determined that no further action will be taken on a case.  The cases should have been reported as closed in the year when legal activity ended.
Grantee management told us that the overstatement was related to a consolidation of separate data bases.  In early 1998, a consolidated database was created at the Rockford office and used to report the case statistics for 1997.  This database was created by merging all branch office databases.  The consolidated database included cases that were established by the Carol Stream and Waukegan office and subsequently referred to other branch offices.  These cases were kept open in the Carol Stream and Waukegan databases, even after they were closed in the databases of the offices that handled the case.  In the consolidation, the closing dates recorded by the branch office handling the cases did not override the blank closing dates in the Carol Stream and Waukegan databases.  As a result the consolidated database showed the cases as still open.
OTHER CASE MANAGEMENT ISSUES
Several internal control problems surfaced during our review.  Specifically, (1) some records contained incorrect closing codes and dates, (2) some records contained incorrect problem codes, (3) some case files did not contain signed citizen attestation documents, and (4) some case files did not contain signed retainer agreements.
The closing dates for 11 percent of the sample cases did not match the closing dates on the source documents.  Reasons for closure codes in source documents were different for 6 percent of the sample cases.
About 7 percent of sample cases had a problem code that was different than the problem matter stated by the attorney and/or paralegal assigned to the case.
About 4 percent of sample cases files did not contain signed citizenship attestation documents.
About 9 percent of sample cases did not contain a signed retainer agreement.
These problems indicate that improved internal controls are needed over the process for submitting data to the case management system and the initial paperwork processing for clients.  The absence of citizenship attestation documents is particularly significant.  Such documentation is vital to establishing client eligibility.  Improved supervisory review is one way of providing the needed internal controls.
MANAGEMENT ACTIONS
Grantee management acknowledged that old open cases should be purged from the case management database and recognized the need to improve reporting.  Corrective actions have been started.  A memorandum was sent in October 1998 to all staff and managing attorneys requesting that they review all old cases that were shown as open in the database.  Any cases that were not active were to be purged from the database by the end of November 1998.  This is a start, but management must take additional actions to ensure all problems are corrected.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in the Grant Activity Report.  Its 1997 report overstated both closed and open cases. These closed case reporting problems were attributable to servicing ineligible clients and opening multiple cases for a client with a single legal problem.  Management must adopt additional controls to ensure these problems are corrected.  The open case overstatement resulted in part from a consolidation of data bases.  Overall, grantee management needs to provide additional supervisory review over case statistical reporting processes and systems.
RECOMMENDATIONS
We recommend that grantee management:
Review LSC eligibility regulations with staff to ensure that clients accepted do not exceed income limits.
Implement procedures to ensure that telephone counselors do not open more than one case per client with the same problem matter.
Implement procedures to ensure the closing of cases in the year in which legal assistance ceased.
Implement procedures requiring supervisors to periodically select a sample of closed and open cases and compare data in the case management system with data in the case file.
Review with staff the instructions in the Case Services Reporting Handbook regarding the recording of problem codes.
Review with staff members the LSC citizenship attestation regulation to ensure that they understand that clients must attest in writing to their citizenship status.
Review with staff members the LSC regulation on retainer agreements to ensure that they understand that both the clients and attorneys must sign the agreements in cases when services beyond counsel and advice is provided.
Implement procedures for review of case service information for accuracy and completeness by the executive director or a designee prior to submission of the Grant Activity Report to LSC.
SUMMARY OF GRANTEE COMMENTS ON DRAFT REPORT
The grantee's comments on the draft report generally agreed with the factual data in the report.  The comments provided explanatory information on how the reported case counting errors occurred.  Many of the errors were isolated mistakes by the staff or occurred during the implementation of a new automated case management system.  The comments suggested that the Executive Summary be clarified by adding that the error rates discussed were based on projections of errors in sample cases.
The comments stated that the recommendations had been implemented.  A manual covering all aspects of client intake and case disposition was provided to each staff member in January 1999.  Several training sessions on using the manual were held in February 1999.  Most staff members were trained at these sessions.  A compliance checklist designed to ensure that LSC regulations are followed has been developed and provided to the staff.  A copy of the manual and checklist were attached to the comments.  A central database of clients is now operational in each office and should eliminate the duplicate records problem.  The grantee's comments, without the attachments, are in Appendix II.
OFFICE OF INSPECTOR GENERAL COMMENTS
The grantee's comments fully addressed the issues discussed in the report.  We modified the Executive Summary to indicate that the over stated case counts were projections based on a review of sample cases and that some problems occurred during the conversion to a new case management system.  Recommendation 4 was modified to emphasize that both open and closed cases should be reviewed.  Recommendation 8 was modified to clarify that top level management should review the cases statistical data before submission to LSC.  Other minor changes to the report were made based on the grantee's comments.
The grantee's comments indicate that good progress has been made in implementing our recommendations.  We consider all the recommendations closed except for Recommendations 4 and 8.
Recommendation 4 requires supervisors to periodically compare case management system data with case file data to ensure data consistency.  The first paragraph on page five of the response states that each quarter closed cases will be sampled and verified.  The recommendation covers both open and closed cases and is only partially addressed by the grantee's comments.  Also the comments do not indicate when the sampling will start.
Recommendation 8 requires that procedures be implemented for management review of case service information before the Grant Activity Report is submitted to LSC.  The grantee addressed this recommendation by stating that the managing attorneys would review and verify case statistical information.  This is a necessary step in ensuring accurate case statistical data, however it is important that top level management review the case statistical data.  As stated above, we modified the recommendation to make it clear that the executive director or a designee should review the case statistical data.  The recommendation is consistent with requirements in the revised CSR Handbook.
Please provide this office a corrective action plan addressing recommendations 4 and 8 within 30 days of the date of this report.
Appendix I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Closed cases were overstated  (page 6)
Recommendations #1 through #4 and #8
Open cases were overstated (page 6)
Recommendations #1 through #4 and #8
Other case management issues  (page 7)
Recommendations #5, 6 and 7
Appendix 2: Grantee Comments